OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID’S
MANAGEMENT OF REAL
PROPERTY
AUDIT REPORT NO. 9-000-09-004-P
March 25, 2009




WASHINGTON, DC
Office of Inspector General




March 25, 2009

MEMORANDUM

TO:            SEC, Director, Randy Streufert
               M/OMS, Director, Beth Salamanca

FROM:          IG/A/PA, Director, Steven H. Bernstein

SUBJECT:       Audit of USAID’s Management of Real Property (Audit Report Number 9-000-09-
               004-P)

This memorandum transmits the final report on the subject audit. In finalizing this report, we
considered your comments and have included them as appendix II.

Based on your comments, we concur that management decisions have been reached on both of
the report’s recommendations. Please coordinate final actions on these recommendations with
USAID’s Performance and Compliance Division (M/CFO/APC).

I appreciate the cooperation and courtesy extended to my staff during this audit.
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 3

          Audit Objective ...................................................................................................... 4

Audit Findings ................................................................................................................. 5

          Improved Process for Eliminating Excess Real Property ...................................... 5

          Increased Accountability Over Real Property........................................................ 7

          USAID Needs to Reduce Security Vulnerabilities at Some Overseas Missions…8

          USAID Should Have Full Access to Real Property Data....................................... 9

Evaluation of Management Comments ....................................................................... 12

Appendix I – Scope and Methodology ........................................................................ 13

Appendix II – Management Comments ....................................................................... 15
SUMMARY OF RESULTS
During fiscal year (FY) 2007, USAID managed about 1,280 real property 1 assets, valued
at about $1 billion, that were subject to regulation by the Federal Real Property Asset
Management Initiative (Initiative). This Initiative aims to mitigate five problems associated
with the management of Federal real property: (1) lack of accountability, (2) lack of useful
information, (3) underused or unneeded Federal property, (4) excessive costs, and (5) lack
of tools and incentives to dispose of underused property. Pursuant to this Initiative,
USAID designated the Director of the Office of Overseas Management Staff as the
Agency’s Senior Real Property Officer and, in collaboration with the Department of
State, issued a Joint Asset Management Plan (see page 3).

The audit found that USAID has made significant progress addressing the specific
actions mandated in the Initiative, and this progress has had positive impact. However,
the audit also found further opportunities to strengthen this progress (see page 5).

Implementing the Initiative has had a particularly positive impact by formalizing USAID’s
process for identifying and removing unused and unneeded property, as well as
improving USAID’s accountability over real property.           The Office of Overseas
Management Staff reported that, through its disposal program, it has disposed of more
than 55 underused and unneeded properties with a total value of $174 million since
FY 2006. Furthermore, the Office reported that in FY 2007, USAID used the Lease
Benchmarking Program to save $721,000 by denying the continuation of 15 leases that
were outside of maximum price or space requirements. In terms of accountability, the
Office of Overseas Management Staff has implemented a series of management
controls over real property data that stress the importance of maintaining accurate
inventory information, knowing and maintaining the condition of the inventory, and
managing operating costs (see pages 5–8).

In addition to these positive results, this audit identified two opportunities to strengthen
USAID’s implementation of the Initiative. First, USAID needs to reduce the security
vulnerabilities at some overseas missions. Second, although the Department of State
and USAID have worked together to manage real property overseas, USAID needs to
obtain full access to real property data (pages 8–11).

This report includes one recommendation for the Office of Security and one
recommendation for the Office of Overseas Management Staff:

     •   Develop and implement a plan of action to address security issues at
         highly vulnerable USAID missions (see page 9).




1
  Executive Order 13327 defines Federal real property as any real property owned, leased, or
otherwise managed by the Federal Government, both within and outside the United States, and
improvements on Federal lands. Classifications of Federal real property include land, buildings,
and structures.



                                                                                              1
     •   Establish and implement a plan of action to work with the Department of
         State to resolve issues that limit access to real property data (see page
         11).

In responding to a draft of this report, USAID management concurred with the
recommendations and presented plans of action with target dates for implementing
them. Accordingly, management decisions have been made on both recommendations.




                                                                                     2
BACKGROUND
During fiscal year (FY) 2007, USAID managed about 1,280 real property 2 assets valued
at about $1 billion. These properties were all subject to regulation by the Federal Real
Property Asset Management Initiative (Initiative). This Initiative, issued in February 2004
in response to Executive Order 13327, Federal Real Property Asset Management,
identifies five problems associated with the state of Federal real property assets:

        •   Lack of accountability within the Federal Government

        •   Lack of useful property information within Federal agencies

        •   Abundance of underused or unneeded Federal property

        •   Excessive costs to the Federal Government

        •   Lack of necessary tools and incentives for agency disposal of
            underused properties

The Initiative also outlines three actions designed to alleviate the problems:

        •   Establish a Senior Real Property Officer at Federal agencies

        •   Establish a Federal Real Property Council

        •   Reform the authorities for managing Federal real property

Finally, the Initiative lists several expected results, including improvements in the five
problem areas listed above.

USAID’s primary responsibility as a result of this Initiative was to appoint a Senior Real
Property Officer to be responsible for implementing the Executive Order and guidance
issued by the Council. USAID established that the Director of the Office of Overseas
Management Staff would be the Agency’s Senior Real Property Officer, whose first duty
was to draft an asset management plan. USAID and the Department of State
collaborated to issue the Joint Asset Management Plan.

The Initiative was part of former President George W. Bush's Management Agenda.
Therefore, its implementation has been subject to quarterly reviews and progress
reporting by the Office of Management and Budget. These reviews have indicated that
USAID has made significant progress in implementing the Initiative. Full implementation
was scheduled for the fourth quarter of FY 2008.


2
  Executive Order 13327 defines Federal real property as any real property owned, leased, or
otherwise managed by the Federal Government, both within and outside the United States, and
improvements on Federal lands. Classifications of Federal real property include land, buildings,
and structures.



                                                                                              3
AUDIT OBJECTIVE
As part of the annual audit plan for FY 2008, the Office of Inspector General conducted
this audit to answer the following question:

       What progress has USAID made to address the specific actions mandated in the
       Federal Real Property Asset Management Initiative, and what is the impact of
       that progress?

Please refer to appendix I for the audit's scope and methodology.




                                                                                     4
AUDIT FINDINGS
The audit found that USAID has made significant progress addressing the specific
actions mandated in the Federal Real Property Asset Management Initiative (Initiative),
and this progress has had positive impact. However, the audit also found further
opportunities to strengthen this progress.

The Initiative and Executive Order 13327 require executive branch agencies and
departments to assign a Senior Real Property Officer who will be responsible for the
following specific actions:

   1. Developing and implementing an asset management plan

   2. Ensuring that real property assets are managed in a manner that is
      consistent with that plan, the agency or department’s strategic plan, and
      any guidance issued by the Federal Real Property Council (the Council)

   3. Providing information related to real property assets to the Director of the
      Office of Management and Budget (OMB) and the Administrator of the
      General Services Administration (GSA) on an annual basis

USAID has addressed all three actions by (1) working with the Department of State to
develop and issue the Joint Asset Management Plan on March 31, 2007, (2) appointing
the Director of the Office of Overseas Management Staff as the Agency’s Senior Real
Property Officer and implementing policies to ensure that assets are managed
appropriately, and (3) working with the Department of State to provide all requested data
to OMB and GSA on an annual basis.

The following four sections discuss (1) the improved process for eliminating excess real
property, (2) the increased accountability established over real property, (3) the need for
USAID to reduce security vulnerabilities at some overseas missions, and (4) the need for
USAID to have full access to real property data.



Improved Process for
Eliminating Excess Real
Property
An abundance of underused and unneeded Federal property and the lack of necessary
tools and incentives for agency disposal of these properties were two of the problems
that resulted in the Initiative. To address these problems, the Initiative requires the
Senior Real Property Officer at each agency to identify and categorize all real property
owned, leased, or otherwise managed and to set targets for more efficient property
management.

USAID used two programs, a disposal program and a lease benchmarking program, to
identify and eliminate underused and unneeded real property from the overseas portfolio
and to terminate leases that did not comply with Agency standards.


                                                                                         5
Disposal Program – Since fiscal year (FY) 2006, USAID’s disposal program has
removed more than 55 underused and unneeded properties with a total value of more
than $174 million from USAID’s real property portfolio. 3 Through the Initiative, USAID
formalized the disposal program for underused and unneeded real property. USAID
officials reported that the formalization process increased accountability for excess
property and helped ensure management awareness of such issues. This formalization
and increased accountability has been crucial, as increased coordination with the
Department of State has made the management of real property more complex.

USAID’s Office of Overseas Management Staff used two methods to collect data related
to real property utilization rates. One source of data is the Real Property Application.
This tool, managed by the Department of State, tracks data related to all USAID and
Department of State real property. USAID executive officers submit these data to the
Real Property Application. Part of the data they are required to report for each property
is the utilization rate (underused, used, or overused). The second tool used to identify
underused properties is the Utilization Survey Tool. The Web-based tool contains
instructions for identifying and assessing underused property. USAID/Washington
requires missions to use this tool annually in reporting data to USAID/Washington.

Assets identified as underused may be targeted for disposal or used for a more
appropriate purpose. This process provides supplementary quantifiable data to
decisionmakers, who then choose whether to find a new use for or dispose of the asset.
Assets identified as unneeded are reviewed to forecast a disposal date. Properties
under consideration for disposal are evaluated using the Council’s criteria.

No missions reported underused property in the most recent application of the Utilization
Survey Tool. Furthermore, an Office of Inspector General survey sent to 70 missions,
to which 55 missions responded, confirmed that underused and unneeded property
was neither a prevalent nor a widespread problem.

Lease Benchmarking Program – In FY 2007, USAID used the Lease Benchmarking
Program to save $721,000 4 by denying the continuation of leases for 15 properties that
were outside maximum price or space requirements or required offshore payments.
Leases with offshore payments are problematic because of the increased fraud risk
associated with making payments internationally.

Each quarter, USAID selects a group of overseas missions and reviews the short-term
leases they manage. The analysis includes comparing lease prices to price ceilings for
each country and comparing leased space to prescribed space standards in relation to
the occupant’s grade and status. If certain leases do not meet price or space
requirements, the Office of Overseas Management Staff notifies the field manager to
take action to resolve the issue. Field managers are permitted to retain leases if they
submit a lease waiver that explains why the lease is necessary and it is approved by the
Office of Overseas Management Staff.



3
 Unaudited data provided by the Office of Overseas Management Staff. Of the 55 properties, 29
were determined to be unneeded because of the installation of a new embassy compound.
4
    Unaudited data provided by the Office of Overseas Management Staff.


                                                                                           6
Increased Accountability
Over Real Property
The Office of Overseas Management Staff has used a system of management controls
over the data compilation process to generate increased accountability over the
management of real property assets. As previously noted, the lack of accountability and
the lack of useful property information were two problems that led to the Initiative. To
address these problems, the Initiative requires each agency’s Senior Real Property
Officer to develop a plan to increase accountability and to compile data on the agency’s
portfolio of real property assets.

The Office of Overseas Management Staff in Washington, DC, has met many of the
challenges associated with managing the large number of geographically dispersed
properties by having a system of management controls that provide complete and
accurate data. USAID has used the following management controls to increase the
reliability of real property data:

       •   Separation of duties – An asset management officer from the Department of
           State periodically inspects USAID office space and randomly selects and
           visits USAID residential properties, verifying the accuracy of data reported by
           executive officers to the Real Property Application. The Department of State
           has a target of evaluating the accuracy of data for each USAID property at
           least once every 3 years.

       •   Internal data reviews – Personnel from the Office of Overseas Management
           Staff conduct an internal review of the Real Property Application data on an
           annual basis. This includes comparing the data to the prior year’s data to
           identify records outside the normal or accepted range, such as high lease
           costs, unusually large tracts of land, or property that is not being used as
           intended.

       •   Annual data certifications – At the end of each fiscal year, the Office of
           Overseas Management Staff conducts a certification of the data in the Real
           Property Application. Executive officers at the posts obtain a printout of their
           Real Property Application data from a Department of State employee. They
           review the data for accuracy and submit any changes to the Department of
           State employee, who enters the changes. The executive officers then obtain
           a printout reflecting any changes and submit a signed statement (also signed
           by the Department of State’s Single Real Property Manager) indicating that
           they have reviewed the data and that the data have been entered correctly.

       •   User data reviews – The Condition Assessment Tool, a database used to
           track maintenance needs, was created using the Real Property Application
           data. Executive officers at missions log into the Condition Assessment Tool
           as needed to record maintenance needs or update maintenance projects.
           When they do so, they are required to verify that the existing real property
           data are accurate. Any inaccuracies are to be reported to a Department of
           State employee, who will then correct the error. The executive officer is then
           required to verify that the change has been made and that the updated data
           are accurate.


                                                                                         7
          •    External data reviews – Guidance issued by the Council in December 2004
               and June 2007 requires executive branch departments and agencies to
               report a complete and accurate listing of real property along with 24 data
               elements about each property on an annual basis. This report is submitted to
               the Council, OMB, and GSA. The Office of Governmentwide Policy at the
               GSA then compares the data to those of prior years and investigates any
               anomalies.

The Office of Overseas Management Staff reported that implementation of the Federal
Real Property Asset Management Initiative has had a positive impact on accountability
by stressing the importance of maintaining accurate inventory information, knowing and
maintaining the condition of inventory, and managing operating costs. Furthermore,
former President Bush’s Management Agenda scorecard indicated that USAID has been
providing current and accurate inventory data, consistent with Federal Real Property
Council standards, to the Governmentwide Real Property Database since December 31,
2005.



USAID Needs to Reduce
Security Vulnerabilities at
Some Overseas Missions

     Summary: The joint Strategic Plan for the Department of State and USAID includes
     a broad requirement that both the Department of State and USAID provide safe
     and secure facilities at posts. Currently, according to USAID’s Office of Security,
     some USAID missions that are especially vulnerable to security threats need to be
     relocated 5 to a new building. However, USAID had not provided sufficient funding
     and staff to relocate to a new building. As a result, some USAID missions did not
     meet all U.S. Government security standards, and exposed USAID property and staff
     to a heightened risk of security threats.

The joint Strategic Plan for the Department of State and USAID states, “The Department
and USAID goal is to provide safe, secure, and functional facilities at domestic and
overseas posts.”

The Government Accountability Office (GAO) classified the need to improve security for
U.S. officials and their families overseas as a major management challenge. For
example, in January 2003, GAO reported 6 the need to improve security and
maintenance of U.S. facilities overseas, particularly structures that were not set back far
enough from busy city streets or were not sufficiently blast resistant, in violation of U.S.
Government security standards. GAO also concluded that the protection of U.S.
embassies and consulates, especially employees and their families, from terrorist
attacks continues to be a critical management issue.


5
    Relocation involves significant planning and effort, including construction.
6
  Major Management Challenges and Program Risks:                 Department of State (GAO-03-107,
January 2003)


                                                                                               8
USAID identified some 7 missions where security vulnerabilities called for a new totally
secure building. The security vulnerabilities relate to the threat of a blast. According to
USAID’s Office of Security, all possible security countermeasures to mitigate this threat
had been instituted, but the vulnerability to blast remained, which would leave USAID
staff vulnerable if an incident occurred. The Office of Security has advised USAID senior
management of these needs. However, USAID had not provided the needed resources
(money and staff) to relocate to new facilities.

According to the Office of Security, new embassy compounds are not currently being
built in these countries. Therefore, it is incumbent upon USAID to fund the relocation to
a new secure mission facility. The Office of Security estimated that between $5 million
and $15 million would be needed for each USAID mission. As of August 2008, such
funding has not been approved.

Because of this lack of a solid short-term action plan with funding and staff
commitments, the highly vulnerable USAID missions did not meet all U.S. Government
security standards and to provide the building and its occupants the required level of
protection against a terrorist blast.   Therefore, this audit makes the following
recommendation:

        Recommendation No. 1: We recommend that the Director, Office of
        Security, in consultation with senior USAID management, develop and
        implement a plan of action to address the security issues at the highly
        vulnerable USAID missions.


USAID Should Have Full Access
to Real Property Data

    Summary: The Initiative requires executive branch departments and agencies to
    identify and categorize all real property. Guidance issued by the Council requires
    these departments and agencies to report real property data on an annual basis.
    USAID uses the Department of State’s electronic database to store and report real
    property information. However, USAID personnel at missions and in Washington,
    DC, do not have full access to this database. This resulted in inefficiencies in
    gathering and verifying data, as well as in the general management of real property.
    According to USAID personnel, this problem was due to firewall issues between the
    Department of State and the USAID computer systems.

The Initiative seeks to improve management of real property by requiring agencies to
collect and report useful property information. The Initiative emphasizes that it is important
for agencies to employ property inventory and management information systems with
regard to the location, size, and other relevant characteristics of real property assets.
Executive Order 13327, which prompted the Initiative, requires all executive branch
agencies and departments to identify and categorize all real property that they own, lease,
7
  At the time of the audit, USAID had identified seven missions as highly vulnerable. By January
2009, according to the Office of Security, three of these seven had relocation proposals in
process, However, USAID still lacked sufficient staff and financial resources to address security
issues at the other four vulnerable missions


                                                                                               9
or otherwise manage. It also requires agencies to abide by any guidance issued by the
Council. Guidance issued by the Council in December 2004 and June 2007 requires
Federal agencies to annually report 24 data elements about each real property in the
agency’s portfolio. To improve real property management using the newly compiled data,
it is important for managers to be able to conveniently access the data.

Unfortunately, the real property database has not been fully accessible to the Office of
Overseas Management Staff and has not been accessible at all to USAID missions. In
2006, USAID began using the Department of State’s Real Property Application database
to store real property data and to meet the reporting requirements described above. This
database tracks data for all Department of State and USAID real property; however,
USAID personnel in Washington reported that they have been able to view only data
pertaining to USAID-managed properties, but not data on all properties occupied by
USAID personnel. As part of a survey of missions, 10 of 55 responding missions reported
an inability to access the Real Property Application, and the Office of Overseas
Management Staff confirmed that no missions have access to the Real Property
Application.

The access problems have resulted in a complex process for managing real property data
at the missions overseas. Mission personnel have been required to obtain real property
reports from Department of State Embassy employees. Furthermore, to update
information in the Real Property Application, USAID employees must provide the
information to the Department of State rather than personally entering the data. Before
data are provided to OMB and GSA for the annual reporting requirement, the Department
of State must work with USAID to verify the data. Department of State embassy
personnel provide reports from the Real Property Application to USAID personnel at each
post. The USAID personnel make any corrections to the reports and return them.
Department of State embassy personnel then enter the changes and print the corrected
reports. The corrected reports are returned to the USAID personnel, who verify that the
data are correct.

According to personnel from the Office of Overseas Management Staff, the inability to
access the Real Property Application for Department of State properties has hindered
USAID/Washington’s ability to manage real property in four ways. First, because USAID
personnel are sometimes housed in Department of State properties, USAID is unable to
easily verify details about all the properties its personnel occupy. Second, if USAID
property is inaccurately recorded as Department of State property, it is difficult for USAID
to identify the problem. Third, USAID uses lease benchmarks to identify leases that are
outside of maximum price or space requirements, and this process is made more difficult
by the fact that data are not available for all of the properties subject to the Initiative.
Fourth, USAID’s real property budget process is limited by the inability to compare data for
all overseas leases.

An inability to access the Real Property Application has also been a mission-level
problem. The complexity involved in making changes to and confirming USAID’s real
property data at the mission level places an avoidable extra demand on executive officers
while also increasing the likelihood of errors in real property data. Responses to a survey
e-mailed to 70 executive officers at missions indicated that accessing real property data is
difficult and time-consuming. For example, three different executive officers provided the
following comments in response to a question about whether it was easy to access real
property application data:


                                                                                         10
       •   “Not necessarily easily. We do not have access and we have to
           request the information from an individual who sits in a different
           building. So, getting the information we need takes some time.”

       •   “It is not easily accessed.”

       •   “…it is problematic and time-consuming to update the RPA [Real
           Property Application] at the Embassy.”

Interviews with USAID personnel have confirmed that the access problems are due to
firewall issues between the USAID and the Department of State computer systems. Both
USAID and the Department of State are aware of the problems. During this audit, the
Office of Overseas Management Staff brought the issues to the attention of the Office of
the Chief Information Officer, and the issue is also expected to be discussed with the Joint
Program Management Office, a body of USAID and Department of State officials that
works to resolve coordination problems between the two entities. To ensure that this issue
remains a priority, this audit makes the following recommendation:

       Recommendation No. 2: We recommend that the Office of Overseas
       Management Staff, in collaboration with the Office of the Chief Information
       Officer, develop and implement a plan of action to work with the
       Department of State to resolve issues concerning access to real property
       data.




                                                                                         11
EVALUATION OF
MANAGEMENT COMMENTS
With respect to recommendation no. 1, the Office of Security concurred. It plans to
continue working with senior USAID management to develop a plan of action to improve
the security of USAID staff occupying the most vulnerable office facilities overseas. The
target date for completing the plan of action is May 29, 2009.

Based on this plan of action and target date, we concur that a management decision has
been made for the recommendation.

The Office of Security also clarified certain statements made in the draft report, which we
have modified in this final report.

With respect to recommendation no. 2, the Office of Overseas Management Staff
concurred. It plans to collaborate with the Office of the Chief Information Officer to
develop an action plan for resolving issues to provide real property data access to
USAID missions and to work with the Department of State to provide the Office of
Overseas Management Staff with access to real property data. The target date for
completing the action plan is March 31, 2009.

Based on this plan of action and target date, we concur that a management decision has
been made for the recommendation.




                                                                                        12
                                                                           APPENDIX I



SCOPE AND METHODOLOGY
Scope
We conducted this performance audit in accordance with generally accepted
Government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

The Office of Inspector General conducted this audit to determine what progress USAID
has made in implementing the Federal Real Property Asset Management Initiative
(Initiative) and what the impact of that progress has been. Audit fieldwork was
conducted at USAID headquarters in Washington, DC, from July 22 through September
11, 2008. The audit scope covered the period from USAID’s first actions to implement
the Initiative (fiscal year 2005) through September 11, 2008. We also considered
updated data contained in a November 10, 2008, USAID report on the status of the
Initiative.

In planning and performing the audit, we assessed management controls over the
accuracy of real property data, including separation of duties and internal and external
reviews.     We also assessed management controls over real property asset
management, including periodic reviews of leasing practices and facility inspections. We
surveyed USAID executive officers at missions overseas, and also interviewed key
USAID personnel in the Management Bureau’s Office of Overseas Management Staff,
Office of Security, the Department of State’s Bureau of Overseas Buildings Operations,
and the Office of Management and Budget’s Office of Federal Financial Management.

Methodology
To answer the audit objective, we reviewed applicable laws and regulations and USAID
policies and procedures pertaining to real property management, including the following:

       •   Executive Order 13327, Federal Real Property Asset Management

       •   All guidance issued by the Federal Real Property Council

       •   Executive Order 13287, Preserve America

       •   Executive Order 13148, Greening the Government through Leadership
           in Environmental Management

       •   The President’s Management Agenda Scorecard

       •   The Foreign Affairs Manual Volume 15, Overseas Buildings Operations




                                                                                     13
                                                                          APPENDIX I


       •   Automated Directives System (ADS) 517, “Acquisition of Domestic Real
           Property”

       •   ADS 535, “Real Property Management Overseas”

       •   Real property data reports from USAID’s Real Property Application

We gathered information from USAID personnel related to the Department of State and
USAID Joint Asset Management Plan, the Real Property Application, the President’s
Management Agenda scorecard, and the Joint Department of State and USAID Strategic
Plan for Fiscal Years 2007–2012. In addition, we sent a survey to 70 missions to
evaluate the impact of the implementation of the Initiative. We received responses from
55 missions. The remaining 15 missions did not respond to the survey. We did not
establish a materiality threshold for this audit.




                                                                                    14
                                                              APPENDIX II



MANAGEMENT COMMENTS
                                     March 13, 2009

MEMORANDUM

TO:               OIGA/PA, Steven Bernstein

FROM:             D/SEC, Randy Streufert (s)

SUBJECT:               Audit of USAID’s Management of Real
            Property (Report No. 9-000-09-XXX-P (revised draft
            received February 12, 2009)

Thank you for your draft report on the Audit of USAID’s Management
of Real Property and for the professionalism and dedication exhibited
by your staff throughout this entire process.

Following is the management decision and comments regarding the
findings and proposed Recommendation No. 1 found on page nine of
the revised draft report:

Recommendation 1: We recommend that the Director, Office of
Security, in consultation with senior USAID management, develop
and implement a plan of action to address the security issues at the
highly vulnerable USAID missions.

Management Decision: It is agreed to implement the
recommendation. Specifically, the Office of Security will continue to
work with senior USAID management to develop a plan of action to
improve the security of USAID staff occupying the most highly
vulnerable office facilities overseas. The target date for completing
the plan of action is May 29, 2009.

Additional Comments: Modification of some of the language
preceding the recommendation would more accurately reflect the
position taken by the Office of Security. Specifically: 1) the Office of
Security is not in a position to state that the vulnerability faced by
agency employees equates to an agency liability; or 2) the basis or


                                                                        15
                                                           APPENDIX II


rationale for USAID management making or not making resources
available for relocation efforts. Recommended alternate language is
provided on the attached.

In closing, I would like to confirm USAID’s commitment to the security
of USAID employees and intend to ensure that all necessary steps
are taken to maintain that commitment. We will continue the
improvements made in the last few years as we work further to
develop and implement long-term solutions to address the issues
cited in your report.


Attachment: as stated




                                                                    16
                                                                            APPENDIX II


                                            March 13, 2009

MEMORANDUM

TO:           IG/A/PA – Director, Steven H. Bernstein

FROM:         M/OMS – Director, Beth Salamanca /s/

SUBJECT:      Management Response to the Office of the Inspector General (OIG) Draft
              Audit Report on USAID’s Management of Real Property

We appreciate the opportunity to respond to the subject draft audit report. We have
reviewed the report and agree with Recommendation No. 2 as submitted by OIG. The
Director, USAID Office of Security (SEC), will respond to Recommendation No. 1 via a
separate memorandum. Our response to Recommendation No. 2 is provided below.

Recommendation No. 2: We recommend that the Office of Overseas Management
Staff (M/OMS), in collaboration with the Office of the Chief Information Officer (M/CIO),
establish and implement a plan of action to work with the Department of State (DoS) to
resolve issues that prevent USAID missions from accessing the real property application
(RPA) and prevent USAID/Washington from having full access to RPA.

Management Decision: M/OMS, in collaboration with M/CIO, will develop an action
plan for resolving issues to provide RPA access to USAID missions and to work with
OBO to get M/OMS full access to the RPA. The action plan will include target dates for
implementation of specific actions (RPA system access, training, and issuance of
implementation guidance). Efforts under review include providing RPA access to Tiers 1
and 2 missions (those co-located in new embassy compound facilities) through DoS’
Web PASS system. Alternate means of providing RPA access to Tier 3 missions (those
that are not co-located in new embassy compound facilities and are without access to
Web PASS system) will be addressed in the plan, to include target completion dates.

Target Date: March 31, 2009




                                                                                       17
U.S. Agency for International Development
        Office of Inspector General
       1300 Pennsylvania Ave., NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
